No. ___________
_____________________________
IN THE
SUPREME COURT OF THE UNITED STATES
_____________________________
RONALD CENTENO,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Pursuant to Rule 39 of the Rules of the Supreme Court of the United States,
Petitioner, Ronald Centeno, seeks leave to file the attached Petition for Writ of
Certiorari to the United States Court of Appeals for the Fourth Circuit without
payment of costs and to proceed in forma pauperis. In support of this Motion, the
Petitioner states as follows:
1.

The Petition for Certiorari in the form prescribed by Rule 14 of the

Rules of this Court, and the Appendix, is submitted for filing along with this
Motion.
2.

Pursuant to the Criminal Justice Act of 1964, James P. McLoughlin,

Jr. was appointed by the United States Court of Appeals for the Fourth Circuit on
October 29, 2019 to represent Petitioner. A copy of the Order is attached hereto.

2
This 27th day of May, 2021.
Respectfully submitted,
/s/ James P. McLoughlin, Jr.
James P. McLoughlin, Jr.
CJA Counsel
Moore & Van Allen, PLLC
100 N. Tryon Street, Suite 4700
Charlotte, NC 28202-4003
(704) 331-1000
jimmcloughlin@mvalaw.com
Attorney for Ronald Centeno

USCA4 Appeal: 15-4603

Doc: 27-1

Filed: 10/29/2019

Pg: 1 of 2

FILED: October 29, 2019
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
___________________
No. 15-4603
(3:12-cr-00385-FDW-1)
___________________
UNITED STATES OF AMERICA
Plaintiff - Appellee
v.
RONALD CENTENO
Defendant - Appellant
___________________
ORDER
___________________
The court grants the motion to withdraw as counsel on appeal.
The court appoints James P. McLoughlin, Jr. to represent Ronald Centeno
on appeal. Counsel is referred to the CJA Payment Memorandum and the CJA
eVoucher Page for information on appointment terms and procedures.
CJA authorization for preparation of transcript is obtained by submitting an
AUTH-24 request in the district eVoucher system. New appellate counsel must
contact district eVoucher staff for appointment to the underlying district court case
in order to submit the AUTH-24 request for district judge approval and the CJA 24

USCA4 Appeal: 15-4603

Doc: 27-1

Filed: 10/29/2019

Pg: 2 of 2

voucher for transcript payment. Counsel must also submit a Transcript Order Form
to the court reporter and district court and file the same in the court of appeals with
the docketing statement. Upon filing of the Transcript Order Form, the Fourth
Circuit will set deadlines for completion of the transcript.
CJA 20 and 21 vouchers are submitted for payment through the Fourth
Circuit's CJA eVoucher system. Upon receiving email notification of this
appointment from eVoucher, counsel may create CJA 20 and 21 vouchers for use in
maintaining time and expense records and paying for expert services.
In light of this appointment, appellate counsel is granted access to sealed
district court material, with the exception of ex parte or in camera material. Any
transcripts or record material sent to prior counsel shall be provided by prior
counsel to newly appointed counsel. If record items are not available from former
counsel, new counsel should contact the Fourth Circuit Appointments Deputy for
assistance in obtaining these items.
The court having appointed new counsel for purposes of this appeal, any
motion for further substitution of counsel shall be disfavored.
For the Court--By Direction
/s/ Patricia S. Connor, Clerk

